               OFFICE OF
        THE INSPECTOR GENERAL

  SOCIAL SECURITY ADMINISTRATION

       ACCURACY OF THE SOCIAL SECURITY
          ADMINISTRATION’S REQUIRED
CERTIFICATION OF FISCAL YEAR 2007 PROCUREMENT
  DATA SUBMISSIONS TO FEDERAL PROCUREMENT
        DATA SYSTEM - NEXT GENERATION

          April 2009   A-15-08-28107




   AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   April 15, 2009                                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Accuracy of the Social Security Administration’s Required Certification of Fiscal
        Year 2007 Procurement Data Submissions to Federal Procurement Data System -
        Next Generation (A-15-08-28107)


        OBJECTIVE

        The objective of our review was to determine the accuracy of the Social Security
        Administration’s (SSA) Required Certification of Fiscal Year (FY) 2007 Procurement
        Data Submissions to Federal Procurement Data System - Next Generation
        (FPDS-NG). 1

        BACKGROUND

        The Federal Funding Accountability and Transparency Act of 2006 2 (Transparency Act)
        requires that the Office of Management and Budget (OMB) maintain a single,
        searchable website, accessible by the public for free, that includes the following for
        each Federal award:

        1.    name of the entity receiving the award;
        2.    amount of the award;
        3.    information on the award, including transaction type, 3 funding agency, etc;
        4.    location of the entity receiving the award; and
        5.    a unique identifier of the entity receiving the award.



        1
         The Government uses FPDS-NG data to create reports for the President, Congress, Government
        Accountability Office, Federal executive agencies, and general public. SSA began using FPDS (the first
        generation of FPDS-NG) in 1979, with paper reports for input into FPDS.
        2
            Pub. L. No. 109-282 § 2(b)(1), 31 U.S.C. § 6101 note.
        3
         Transaction Type is defined as “Direct or guaranteed loan, grant, cooperative agreement, contract, or
        other.”
Page 2 - The Commissioner


Pursuant to the Transparency Act, OMB developed the website www.USAspending.gov.
FPDS-NG, which is managed by the General Services Administration, is one of the data
sources 4 for the information maintained on the www.USAspending.gov website. Each
Executive department and agency is responsible for collecting and reporting
procurement data to FPDS-NG. To ensure the accuracy of information reported to the
FPDS-NG, OMB requires that departments and agencies provide an annual certification
to OMB’s Office of Federal Procurement Policy.

SSA uses its Streamlined Acquisition System (SSASy) 5 to report acquisition planning,
requisitions, awards, and acquisition management information. Data from select fields
in SSASy are electronically transmitted into the FPDS-NG database. SSA employees
manually enter information for other fields. SSA's SSASy Manual and Acquisition
Handbook provide guidance and procedures for inputting information into SSASy and
FPDS-NG. Once an award is made, SSASy prompts SSA employees to enter the
award information into FPDS-NG. If there are technical problems, for example,
FPDS-NG is down, employees are required to enter the award information into
FPDS-NG at a later time. The Acquisition Handbook requires that other Office of
Acquisition and Grants (OAG) employees reviewing SSA awards also review the data in
FPDS-NG for accuracy and completeness.

Certain contracting officers and others who entered data directly into FPDS-NG were
required to certify to the Associate Commissioner, OAG, that they had entered all
required awards into FPDS-NG for FY 2007. In SSA’s Required Certification of
FY 2007 Procurement Data Submissions to FPDS-NG (FPDS-NG Certification), a
senior SSA procurement executive certified to OMB that
1. reportable contract actions 6 awarded during FY 2007 had been entered into
   FPDS-NG as fully and accurately as reasonably possible;
2. data were submitted to FPDS-NG no later than October 1, 2007;
3. certifications were collected from subordinate offices;
4. contract files were compared to data in FPDS-NG;
5. business-size determinations 7 were reviewed; and
6. other actions, such as FPDS-NG training and data review, were taken.

SSA’s OAG provided us copies of the signed FPDS-NG Certification it submitted to
OMB, the data SSA used to support its FPDS-NG Certification and other supporting
documentation. In FY 2007, SSA made 9,266 awards totaling $804.3 million. Before
4
    Other sources include the Federal Awards and Assistance Data System and www.grants.gov.
5
 SSASy is an electronic tool to create, route and process purchase requests. OAG conducted a pilot of
SSASy in 2001. SSASy became the official contract file for awards made by OAG in FY 2004 and for
awards made by Regional contracting officers in FY 2007.
6
  Reportable contract actions are all contract actions using appropriated funds over the micro-purchase
threshold amount. Examples include services, telecommunications, supplies and equipment.
7
    Business-size determinations are defined as “Small Business” and “Other than Small.”
Page 3 - The Commissioner


certifying the accuracy of the contract data, SSA compared the information in SSASy to
information in FPDS-NG. Of the 9,266 awards, OAG identified 197 that had been
entered into SSASy, but not FPDS-NG, as of November 28, 2007. To determine
whether SSA correctly certified procurement data in FPDS-NG, we reviewed all of the
197 awards, totaling $14.7 million, to determine whether they had been included in
FPDS-NG. We also reviewed a sample of 45 of the remaining 9,069 awards.

RESULTS OF REVIEW
With the exception of minor discrepancies, we found that SSA properly recorded
$789.6 million of the FY 2007 awards totaling $804.3 million in FPDS-NG. The minor
discrepancies resulted from untimely data reporting and data input errors. These
inaccuracies represented 2 percent of the overall procurement awards.

UNTIMELY DATA

We obtained a data file of the FY 2007 awards in FPDS-NG as of March 2008 to ensure
SSA had subsequently entered the missing 197 awards into FPDS-NG. We found, as
of March 2008, 14 awards, totaling $278,112, were still not entered into FPDS-NG. All
awards should have been entered by October 1, 2007. After our audit, 12 of the
14 missing contract actions were added to FPDS-NG.

SSASy prompts SSA employees to enter award information into FPDS-NG. If there are
technical problems, for example, FPDS-NG is down, employees are required to enter
the award information into FPDS-NG at a later time. Although an SSA representative
reviewed the November 28, 2007 data report and sent emails to the responsible
Contracting Officers to ensure the 197 awards were entered into FPDS-NG, we were
unable to determine whether any steps were taken to ensure the required awards were
entered into FPDS-NG. The SSA representative has retired, and there was no
auditable documentation showing what other steps the representative may have taken.
The incomplete award data caused the information submitted to FPDS-NG to be
inaccurate, understating the number and dollars of awards.

INACCURATE DATA

Our comparison of the November 28, 2007 report and the March 2008 data also
showed SSASy and FPDS-NG data were not always accurate. The
November 28, 2007 report for FY 2007 erroneously contained 63 awards, totaling
$22,310 for awards made in FY 2006 and $4.3 million for awards made in FY 2008. We
did not have any findings for the sample of 45 additional awards. SSA correctly entered
the sampled awards in FPDS-NG. SSA provided supporting documentation for 44 of
the sampled awards. Although SSA provided some supporting documentation for the
remaining award, it was unable to locate all the documentation because of staff
changes.
Page 4 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
With the exception of minor discrepancies that resulted from untimely data reporting and
data input errors, the Agency accurately reported and certified contract information to
OMB. We recommend SSA:

1. Remind staff of the policies and procedures for routine verification and correction of
   contract data.

2. Take steps to ensure contract data in SSASy and FPDS-NG are submitted timely
   and accurately.

3. Take steps to resolve the status and reporting of the two missing contract actions.

4. Continue to enhance the automatic data exchange between SSASy and FPDS-NG
   as future versions of SSASy are developed.

AGENCY COMMENT AND OIG RESPONSE
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix C.



                                                S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                    Appendix A

Acronyms
FPDS-NG                 Federal Procurement Data System – Next Generation
FPDS-NG Certification   Required Certification of FY 2007 Procurement Data
                        Submissions to FPDS-NG
FY                      Fiscal Year
OAG                     Office of Acquisition and Grants
OIG                     Office of the Inspector General
OMB                     Office of Management and Budget
Pub. L. No.             Public Law Number
SSA                     Social Security Administration
SSASy                   Streamlined Acquisition System
Transparency Act        Federal Funding Accountability and Transparency Act of 2006
                                                                    Appendix B

Scope and Methodology
We reviewed the accuracy of the Social Security Administration’s (SSA) Federal
Procurement Data System - Next Generation (FPDS-NG) data submission certification.

To accomplish our objective, we:

   Reviewed applicable Federal laws and regulations as well as pertinent SSA policies
    and procedures.
   Interviewed SSA’s Office of Acquisition and Grants (OAG) staff to gain an
    understanding of the Required Certification of FY 2007 Procurement Submissions to
    FPDS-NG (FPDS-NG Certification).
   Obtained and reviewed a copy of the signed FPDS-NG Certification SSA submitted
    to the Office of Management and Budget.
   Requested and received from OAG the data reports SSA used to support its
    FPDS-NG Certification, as well as other supporting documentation. Our population
    consisted of 197 awards in the November 2007 data report of awards entered into
    SSASy but not FPDS-NG.
   Reviewed all 197 of the awards that were in the November 2007 exceptions data
    report.
   Reviewed a sample of 45 awards from the remaining 9,069 of the 9,266 awards that
    were in the March 2008 FPDS-NG data file.

We determined that the data report, provided by SSA for this audit, contained
incomplete and inaccurate data. We base this determination on our interviews with
OAG staff and our review of the documents supporting the FPDS-NG Certification. We
did not determine the completeness of the data extract provided by SSA.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

We conducted our fieldwork in Baltimore, Maryland, between February and
November 2008. The entity audited was OAG.
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:      March 31, 2009                                                          Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Accuracy of the Social Security
           Administration’s Required Certification of Fiscal Year 2007 Procurement Data Submissions to
           Federal Procurement Data System – Next Generation” (A-15-08-28107)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate the
           comprehensive work that the OIG auditing team did on this report. Our response to the report
           findings and recommendations is attached.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“ACCURACY OF THE SOCIAL SECURITY ADMINISTRATION’S REQUIRED
CERTIFICATION OF FISCAL YEAR 2007 PROCUREMENT DATA SUBMISSIONS TO
FEDERAL PROCUREMENT DATA SYSTEM – NEXT GENERATION” (A-15-08-28107)

Recommendation 1

Remind staff of the policies and procedures for routine verification and correction of contract
data.

Comment

We agree. We will remind staff in an upcoming March 2009 Acquisition Update (newsletter) of
the criticality of reviewing and verifying the data in the Federal Procurement Data System –Next
Generation (FPDS-NG). We will also remind them to take timely action on any necessary data
corrections.

Recommendation 2

Take steps to ensure contract data in the Social Security Administration’s Streamlined
Acquisition System (SSASy) and FPDS-NG are submitted timely and accurately.

Comment

We agree. We will continue to remind managers to review reports of SSASy awards that we
have not completed in FPDS-NG and encourage them to take appropriate action for the awards
on the list. We conducted a random review of fiscal year (FY) 2008 SSASy awards for accuracy
and completeness. This review was one of the bases for our validation of FY 2008 FPDS-NG
data. We will conduct this review on an annual basis.
Errors during the FPDS-NG validation process result in untimely reporting of some transactions.
The errors require either software fixes to SSASy or manual intervention from FPDS-NG. These
corrective measures take time because we are dependent on two separate contractors for the
corrections. Ultimately, we make the corrections and then enter the data.

Recommendation 3

Take steps to resolve the status and reporting of the two missing contract actions.

Comment

We agree. We resolved these actions by submitting the two missing contract actions to FPDS-
NG. We have no remaining FY 2007 actions to report to FPDS-NG.




                                               C-2
Recommendation 4

Continue to enhance the automatic data exchange between SSASy and FPDS-NG as future
versions of SSASy are developed.

Comment

We agree. The SSASy application is a commercial off-the-shelf application that we update
through the vendor's support contract and we maintain synchronization with FPDS-NG as new
versions of FPDS-NG are developed.




                                            C-3
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Vicki Vetter, Director, Financial Audit Division

Acknowledgments

In addition to those named above:

   Jackie Patel, Auditor-in-Charge

   Brennan Kraje, Statistician

   Kim Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-08-28107.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
